NO.:
IN THE
SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2020

TRENARD CALDWELL,
Petitioner,
Ve
UNITED STATES OF AMERICA,

Respondent.
DECLARATION VERIFYING TIMELY FILING

Petitioner. TRENARD CALDWELL, through undersigned counsel and pursuant to
SUP. CT. R. 29.2 and 28 U.S.C. § 1746, declares that the Petition for Writ of Certiorari
filed in the above-styled matter was placed in the U.S. mail in a prepaid first class envelope,
addressed to the Clerk of the Supreme Court of the United States,; and that a copy was also
mailed to the Solicitor General of the United States and to the United States Attorney for the

Southern District of Florida, on the 21" day of September, 2020, which is prior to the date the

itl, | Ws Be Zs

j
OSE R.E, BATISTA, ESQ.
“Counsel for Petitioner
BATISTA & BATISTA, P.A.
7171 Coral Way, Suite 400
Miami, Florida 33155

Tel. No. (305) 267-5139
Facsimile: (305) 267-4108
email: jrebatistalaw@gmail.com

petition for writ of certiorari is due.

 
   

    

Miami, Florida
September 2020
